19-296
DAMIEN GUEDES, ET AL.,
Petitioners,
v.
BUREAU OF ALCOHOL, TOBACCO, FIREARMS AND EXPLOSIVES, ET AL.,
Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Brief of
Amicus Curiae Firearms Policy Coalition in Support of Petitioners in the above
entitled case complies with the typeface requirements of Supreme Court Rule
33.1(b), being prepared in New Century Schoolbook 12 point for the text and
10 point for the footnotes, and that this brief contains 5,753 words, excluding
the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

/s/ Joseph G.S. Greenlee
Counsel of Record

